COMMODITY FUTURES TRADING COMMISSION

  SEMIANNUAL REPORT
        OF THE




   OFFICE OF THE
INSPECTOR GENERAL




 FOR THEPERlOD ENDING MARCH 31,2004
                            u.s. COMMODITY FUTURES TRADING COMMISSION
                                                  Three Lafayette Centre
                                      1155 21 st Street, NW, Washington, DC 20581
                                               Telephone: (202) 418-5110
                                                Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                                 April 30, 2004
Inspector General




      TO:            James E. Newsome
                     Chainnan

      FROM:          A. Roy Lavik     n n {.'d-0
                     Inspector GenerU ' (

      SUBJECT:       Semiannual Report of the Office ofthe Inspector General

              Attached is the Semiannual Report of the Office of the Inspector General for the period
     . from October 1, 2003 through March 31, 2004. This report is submitted to you in accordance
       with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION

                             SEMIANNUAL REPORT
                             FOR THE PERIOD FROM
                     October 1, 2003 THROUGH March 31, 2004


                              TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(l) and (2) of the Act)]                                        1
    AUDITS                                                                                   1
    INVESTIGATIONS                                                                           2
    LEGISLATIVE AND REGULATORY REVIEWS                                                      .3

OIG RESPONSmILITIES                                                                         3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK.                                                                            4
    AUDITS [including a list of each audit report issued and a su~ary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                  .4
    INVESTIGATIONS                                                                         6
    LEGISLATIVE AND REGULATORY REVIEWS                                                     6

AUDIT REPORTS OVER SIX MONTHS OLD                                                           7

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   7
       CORRECTIVE ACTION COMPLETED                                                          7
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation of the reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(lO)
      of the Act)]                                                                         7

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           7

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      7

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act)]                           8

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                               8

CURRENT AUDITS                                                                             8

GAO LIAISON                                                                               12

STRATEGIC PLAN                                                                            13

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                            18

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                             19

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                              20




                                             11
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(1)                                1

Section 5(a)(2)                                 1

Section 5(a)(3)                                7

Section 5(a)(4)                                7

Section 5(a)(5)                                 7

Section 5(a)(6)                                4

Section 5(a)(7)                                4

Section 5(a)(8)                                19

Section 5(a)(9)                                20

Section 5(a)(lO)                                7

Section 5(a)(11)                                8

Section 5(a)(12)                                8




                               111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 8.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's terms. This will
       include an examination of the performance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 9.)

       Audit of CFTC Financial Statements. In FY 2002, Congress passed the Accountability of
       Tax Dollars Act. The Act requires the CFTC, along with numerous other Federal
       entities, to have its financial statements audited annually. To this end, the objective of
       this audit is to acquire a contractor who will provide the audit effort required to enable
       the contractor to render an opinion on the agency's financial statements for fiscal year
       2004 in accordance with generally accepted auditing standards, Government Auditing
       Standards, and OMB Bulletin 01-02. (For additional details, see page 9.)

       Audit of Emergency Contact Telephone Numbers. The Commission maintains
       emergency telephone contact numbers for all key CFTC employees and for key
       employees at regulated exchanges. The list of these emergency contact numbers should
       be currently maintained and in the possession of all key employees for use in the event of
       an emergency. This audit will review the currency of the list of emergency contact
       numbers and the possession of these numbers by all key employees. (For additional
       details, see page 11.)



                                                 1
       Follow-up Audit of Civil Monetary Penalties Collection Process in the Division of
       Enforcement. The Debt Collection Act of 1982 and the Debt Collection Improvement
       Act of 1996 (DCIA) direct Federal agencies to collect debts owed to the United States.
       The OIG completed an audit of the Civil Monetary Penalties Collection Process in April
       2001 which examined the outstanding debts owed to the Commission, reviewed the
       procedures for collecting outstanding debts, and assessed compliance with the DCIA.
       Improvements in the implementation of the debt collection process were recommended.
       The objectives of this audit are to determine if the suggested changes were implemented
       and if they have had the desired effect. (For additional details, see page 11.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 4.)

       Audit of CFTC Time and Attendance Records for Timekeepers. Since the bulk of
       CFTC's funds are expended on salaries, it is imperative that we insure that payments to
       employees are computed based on accurate reporting of time and attendance. The
       objective of this audit is to determine if the procedures established to insure the accurate
       completion of time and attendance reports are adequate and are being carried out in
       accordance with instructions. (For additional details, see page 5.)

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 5.)


INVESTIGATIONS

         The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the .public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened no investigations during the reporting period and completed no investigations. (See the
section on investigations beginning on page 6.)




                                                 2
LEGISLATIVE AND REGULATORY REVIEWS
        The DIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

      The Inspector General continues to be heavily involved in legislative activities.
Congressional staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES


       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance ·with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;                         .

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.



                                                 3
       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.



                                      OIG RESOURCES

        The OIG consists of the Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum ofUnderstanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the aIG with aGC legal services. An aGC staffmember has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS·

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of 2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits ofCFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted


                                                4
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.

1.        Audit of CFfC Time and Attendance Records for Timekeepers

Objective.

        Since the bulk ofCFTC's funds are expended on salaries, it is imperative that we insure
that payments to employees are computed based on accurate reporting of time and attendance.
The objective of this audit is to determine if the procedures established to insure the accurate
completion of time and attendance reports are adequate and are being carried out in accordance
with instructions.

Status.

       A final audit report was issued on March 22, 2004. The audit found that most
timekeepers complied with established procedures for collecting and processing time and
attendance data. However, two timekeepers were missing their time and attendance records in
two separate pay periods; eight timekeepers (15% of the audit sample) prepared, approved and
submitted their own time and attendance records to the National Finance Center; and one
timekeeper was incorrectly credited in January of2003 with an extra and unearned 32 hours of
annual leave and 9 hours of sick leave which was corrected in February 2004.

2.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objective.

       In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.




                                                    5
Status.

        For the second year, the Commission has been working on a new approach to satisfying
the requirement of Circular A-123 (Revised). The OIG reviewed draft and final internal control
materials produced by the Commission and provided comments. The OIG reported the results of
its review of the submissions to the Chairman in its annual assurance letters. The OIG offered its
serVices to the Commission as advisor and consultant on conducting and reporting on internal
control reviews.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened no investigations during the reporting period and completed no investigations during the
reporting period.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Formal comments were not filed with
the Commission.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The OIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.



                                                 6
Legislative Activities

      The Inspector General continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues.



              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
        There were no instances ofreports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

        There were no instances ofreports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period

                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.




                                                7
                      REVISED MANAGEMENT DECISIONS

           No management decisions were revised during the reporting period.



                   INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.



                                      CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.




                                                     8
1.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting perforinance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

        In response to Congressional interest, the OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector
General reviewed the Commission's FY 2001, FY 2002 and FY 2003 Annual Performance Plan
before each was submitted to Congress. Subsequently, the OIG selectively reviewed the FY
1999, FY 2000 and FY 2001 Annual Performance Reports after they were submitted to
Congress. The OIG concluded that the agency had made improvements in defining its goals and
identifying measures for reaching its stated goals.

       The CFMA, which was enacted in fiscal year 2001, fundamentally changed the
regulatory structure for the commodity futures markets. The Commission adopted new rules and
procedures consistent with the regulatory reforms presented in that Act. This wholesale change
in approach challenged each operating division to redefine its service goals under GRPA. The
agency implemented a reorganization that allows the Commission to more effectively respond to
the new Act.

        The OIG participated in a number of discussions on how to best reflect the agency's new
regulatory paradigm in structuring future goals and measures under GPRA. In conjunction with
other federal agencies' Inspectors General, the OIG is participating in the development of best
practices for measuring compliance with the requirements of GPRA. The DIG is reviewing the
goals and objectives prepared by senior managers for adherence to the requirements of GPRA.
After this review, the DIG will verify and validate a subset of the data submitted in the GPRA
report.

2.        Audit of CYrC Financial Statements

Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the objective of this audit is to acquire a contractor who will provide the
audit effort required to enable the contractor to render an opinion on the agency's financial




                                                 9
statements for fiscal year 2004 in accordance with generally accepted auditing standards,
Government Auditing Standards, and OMB Bulletin 01-02.

The specific objectives of this audit are to determine whether:

       (1) The fmancial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this determination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perform sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

        The independent public accountant (IPA) will limit its internal control testing to those
        controls necessary to achieve the objectives described in OMB Bulletin No. 01-02.
        Further, the IPA is not required to test all internal controls relevant to operating
        objectives as broadly defined by the Federal Manager's Financial Integrity Act of 1982,
      . such as those controls relevant to achieving efficient operations.

       With respect to internal controls related to performance measures reported in the
       accountability report, the IPA will obtain an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin No. 01-02. The procedures are not required to provide assurance on
       internal controls over reported performance measures.

       (3) The agency has complied with selected provisions of laws and regulations identified
       by OMB Bulletin No. 01-02 or the Inspector General, noncompliance with which could
       have a direct and material effect on the determination of financial statement amounts.
       The IP A will limit its tests of compliance to these provisions and need not test
       compliance with all laws and regulations applicable to the CFTC.

       (4) The information in the "Overview of the Reporting Entity" is consistent in content
       and presentation with the information in the principal statements and the related notes
       consistent with SAS No.8, Other Information in Documents Containing Audited
       Financial Statements.




                                                 10
Status.

        A Request for Quote was issued on July 14, 2003. By the closing date of August 14,
2003, four firms had submitted proposals. The independent public accounting firm was selected
on January 15,2004. Work began with an opening meeting on February 18, 2004. Initial
interviews of CFTC employees are underway, and an audit plan was delivered to the Office of
the Inspector General on April 15, 2004. The final report is due on November 12, 2004.

3.        Audit of Emergency Contact Telephone Numbers

Objective.

       The Commission maintains emergency telephone contact numbers for all key CFTC
employees and for key employees at regulated exchanges. The list of these emergency contact
numbers should be currently maintained and in the possession of all key employees for use in the
event of an emergency. This audit will review the currency of the list of emergency contact
numbers and the possession of these numbers by all key employees.

Status.

        A draft of the audit program has been prepared. The OIG has contacted all affected
divisions and secured the data necessary for this audit.

4.        Follow-up Audit of Civil Monetary Penalties Collection Process in the Division of
          Enforcement.

Objective.

        The Debt Collection Act of 1982 and the Debt Collection Improvement Act of 1996
(DCIA) direct Federal agencies to collect debts owed to the United States. The OIG completed
an audit of the Civil Monetary Penalties Collection Process in April 2001, which examined the
outstanding debts owed to the Commission, reviewed the procedures for collecting outstanding
debts, and assessed compliance with the DCIA. Improvements in the implementation of the debt
collection process were recommended. The objectives of this audit are to determine if the
suggested changes were implemented and if they have had the desired effect.

Status.

       An audit program has been prepared. The OIG has contacted the Division of
Enforcement and requested the necessary data for this audit. Appropriate parties at the U.S.
Department of the Treasury have been identified and will be contacted to ascertain if the
Division of Enforcement is complying with the rules for timely shipment of uncollected civil
monetary penalties to the U.S. Treasury. Other modifications to preexisting procedures will be
examined. An audit report is scheduled for completion before the end of the coming Semi-
Annual Reporting period.




                                               11
                                      GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OlG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits ofCFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                 12
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (P.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration ofCFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine if the change is in
the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.




                                                 13
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as ifit were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 14
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The ala has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads.· This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
ala believed that an independent regulatory agency such as the CFTC, without grant money or
substantial"contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the ala, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized in the
agency-wide telephone book and in this semiannual report.

       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the ala
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problein(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                 15
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agencis review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
of their various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use of resources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Cl1airman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        Ifrecommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as leases of space in New York, Chicago, and
Washington, D.C.), the collection of funds (such as compliance with the terms of the Debt
Collection Improvement Act of 1996 and the resultant Memorandum of Understanding with



                                                16
Treasury), and agency compliance with Congressional mandates (such as the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCES REQUIRED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each of the next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                17
                       CONTACTING THE OFFICE OF THE
                           INSPECTOR GENERAL


        The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              18
                                              Table 1
                                 Reports Issued with Questioned Costs
                                  (October 1,2003 - March 31,2004)


                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c.   For which a management decision was
     made during the reporting period                   o               o        o
     ( I)     dollar value of
              disallowed costs                          o               o        o
     ( ii )   dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               19
                                              Table 2
                             Reports Issued with Recommendations
                               That Funds be Put to Better Use
                              (October 1, 2003 - March 31, 2004)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o             o
B.   Which were issued during the reporting
     period                                          o             o
     Subtotals (A + B)                               o             o
c.   For which a management decision was
     made during the reporting period                o             o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o             o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             o             o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o             o




                                              20
        The Inspector General
        needs your help to
        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581 .
